      REVIEW OF PROGRAM
  PERFORMANCE MEASUREMENT
       FOR PROCUREMENT
REPORT NUMBER A070171/Q/A/P09005

        September 30, 2009
                      REVIEW OF PROGRAM
           PERFORMANCE MEASUREMENT FOR PROCUREMENT
                REPORT NUMBER A070171/Q/A/P09005


                               TABLE OF CONTENTS

                                                                         Page

EXECUTIVE SUMMARY                                                         i
    Purpose                                                               i
    Background                                                            i
    Results in Brief                                                      ii
    Recommendations                                                       ii
    Management Comments                                                   iii
INTRODUCTION                                                              1
    Background                                                            1
           Performance Measures                                           1
    Objective, Scope and Methodology                                      3
RESULTS OF REVIEW                                                         6
    Quality in MAS Contracting Can be Defined in Terms of Customer
    Satisfaction and Compliance with Laws, Regulations, and Guidelines    6

           Customer Satisfaction                                          6
                  Timeliness                                              7
           Compliance with Laws, Regulations, and Guidelines              7
                  Pricing                                                 7
    FAS Needs to Strengthen Performance Measures for Contract Pricing
    and Overall Compliance with Laws, Regulations, and Guidelines         7
           Customer Satisfaction Measures are Adequate                    8
           Existing FAS Measures for Pricing and Overall Compliance
           Need Strengthening                                             10
                  Additional Pricing Measures Needed                      11
                  Recommendations                                         15
                  Management Comments                                     15
                      REVIEW OF PROGRAM
           PERFORMANCE MEASUREMENT FOR PROCUREMENT
                REPORT NUMBER A070171/Q/A/P09005


                      TABLE OF CONTENTS (continued)
 
          Measure for Overall Compliance with Laws, Regulations, and
          Guidelines is Not Adequate                                   16
                 Recommendation                                        17
                 Management Comments                                   17


CONCLUSION                                                             18
INTERNAL CONTROLS                                                      18
APPENDICES
    Pricing Criteria and History of Reported Problems                  A-1
    Management Comments                                                B-1
    OIG’s Response to Management’s Comments                            C-1
    Report Distribution                                                D-1
                                          REVIEW OF PROGRAM
                               PERFORMANCE MEASUREMENT FOR PROCUREMENT
                                    REPORT NUMBER A070171/Q/A/P09005


                                                               EXECUTIVE SUMMARY

Purpose

The objective of this review was to determine if the General Services Administration’s
(GSA’s) Federal Acquisition Service (FAS) has performance measures for Multiple
Award Schedule (MAS) contracting officers (COs) that stress the importance of contract
quality, including pricing, and if not, to identify potential performance measures FAS
could implement to ensure that MAS contracts reflect the goals of the Multiple Award
Schedules program (hereon referred to as “Schedules program”).

Background

Under GSA’s Schedules program, FAS establishes and administers long-term contracts
with commercial vendors to provide government agencies with streamlined access to
over 12 million commercial supplies and services to meet their missions. Agencies’ use
of the Schedules program satisfies government-wide competition requirements
mandated by law provided that GSA opens the program to all responsible sources, and
contracts and orders under the program result in the lowest cost alternative for the
government’s needs. GSA Schedules offer the potential benefits of shorter lead-times,
lower administrative costs, and reduced inventories. Within the FAS organization, the
Schedules program is administered through nine acquisition centers, which are located
within three distinct FAS portfolios: Integrated Technology Services; General Supplies
& Services; and Travel, Motor Vehicles, and Card Services. 1

To ensure customer agencies and taxpayers receive the best value and fulfill the intent
of the Schedules program, COs are responsible for negotiating with the goal of
achieving vendors’ most favored customer (MFC) pricing through leveraging the
collective purchasing volume of the government. The volume of the Schedules program
has increased dramatically over the last ten years. As of September 1, 2008, GSA had
16,501 contracts in effect and $36.7 billion dollars in sales. To cover the costs of
operating the MAS program, customer agencies pay a 0.75% industrial funding fee on
total MAS purchases. MAS vendors collect this fee and remit the fee to GSA.

                                                            
1
  On October 1, 2008, GSA announced the development of the Multiple Award Schedule Program Office,
a part of FAS’ Acquisition Management Office. The Office of Acquisition Management is responsible for
establishing the standards and framework for managing the acquisition workforce in accordance with
policy established by the GSA Chief Acquisition Officer. This new MAS Program Office will ensure that
the MAS portfolios are following consistent policies and procedures and strategically align the MAS
Program.



                                                                       i
COs are evaluated based upon critical job elements, which are documented in
Associate Performance Plan & Appraisal System (APPAS) plans. These individual
performance plans focus on assigned duties and responsibilities performed by the CO.
The APPAS plans link CO performance measures to the organizational and agency
mission and provide guidance and accountability for individual performance
expectations.

In addition to the individual CO performance plans, FAS developed scorecards at the
organizational level. The scorecards assist FAS managers in translating organizational
strategies into measurable actions and meaningful business results.

Results in Brief

FAS has performance measures for MAS COs that assess contract quality, including
customer satisfaction and compliance with laws, regulations, and guidelines. We found
FAS’ existing measures for customer satisfaction to be sufficient. However, because of
the importance of pricing to the foundation of the Schedules program, attention is
needed to ensure that pricing receives more emphasis in CO performance and to
ensure an adequate assessment of overall compliance.

We recognize that FAS has made efforts to develop meaningful and measurable
contract quality measures for MAS contracts, including some pricing measures.
However, we believe FAS should adopt additional measures at the organizational level
to address continuing concerns about Schedules program pricing. Strengthening price
related performance measures is critical to improve controls over the quality of MAS
contracts and enhance the value of the Schedules program. In conjunction with the
information we are providing based on our study of other government procurement
organizations, we are also reaffirming recommendations from a previous report
intended to improve CO performance in price analysis and negotiations.

Relative to broad compliance with laws, regulations, and guidelines, FAS has developed
portfolio scorecards that incorporate a measure for overall quality of contract actions;
however, FAS has not formally implemented the measure. The intended basis for the
measure is the results of annual Procurement Management Reviews (PMRs) performed
by GSA’s Office of the Chief Acquisition Officer (OCAO); however, in our opinion, these
reviews do not provide adequate evidence of the level of compliance for the Schedules
program due to the small number of MAS contract actions the OCAO samples.

Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

   1. Ensure that the Offices of General Supplies & Services and Travel, Motor
      Vehicles, and Card Services develop at least one organizational measure
      emphasizing the importance of pricing to the Schedules program for FY 2010
      and future scorecards.

                                           ii
   2. Ensure that the Offices of Integrated Technology Services; General Supplies &
      Services; and Travel, Motor Vehicles, and Card Services portfolios develop an
      organizational measure for FY 2010 and future scorecards to evaluate price
      analysis for a risk-based sample of proposed awards or modifications (e.g.,
      percent of contracting actions reviewed with acceptable price analysis performed
      and documented in compliance with regulatory guidelines).

   3. Establish an internal review program through the Office of Acquisition
      Management that will provide an adequate assessment of the extent that MAS
      contracts meet requirements for quality in terms of compliance with laws,
      regulations, and guidelines and that can be quantitatively measured at the
      organizational level.

Management Comments

The Commissioner indicated partial agreement with these recommendations. The
Commissioner’s comments are included in their entirety as Appendix B to this report.




                                           iii
                         REVIEW OF PROGRAM
              PERFORMANCE MEASUREMENT FOR PROCUREMENT
                   REPORT NUMBER A070171/Q/A/P09005


                                    INTRODUCTION

Background

Under the General Services Administration’s (GSA’s) Multiple Award Schedules
program (hereon referred to as “Schedules program”), the Federal Acquisition Service
(FAS) establishes and administers long-term contracts with commercial vendors to
provide government agencies with streamlined access to over 12 million commercial
supplies and services to meet their missions. Agencies’ use of the Schedules program
satisfies government-wide competition requirements mandated by law provided that
GSA opens the program to all responsible sources, and contracts and orders under the
program result in the lowest cost alternative for the government’s needs. GSA
Schedules offer the potential benefits of shorter lead-times, lower administrative costs,
and reduced inventories. To ensure customer agencies and taxpayers receive the best
value and fulfill the intent of the Schedules program, Contracting Officers (COs) are
responsible for negotiating with the goal of achieving vendors’ most favored customer
(MFC) pricing through leveraging the collective purchasing volume of the government.

The volume of the Schedules program has increased dramatically over the last ten
years. As of September 1, 2008, GSA had 16,501 contracts in effect and $36.7 billion
dollars in sales. To cover the costs of operating the MAS program, customer agencies
pay a 0.75% industrial funding fee on total MAS purchases. MAS vendors collect this
fee and remit the fee to GSA.

Performance Measures

COs are evaluated based upon critical job elements, which are documented in
Associate Performance Plan & Appraisal System (APPAS) plans. These individual
performance plans focus on assigned duties and responsibilities performed by the CO.
The performance plans link CO performance measures to the organizational and
agency mission and provide guidance and accountability for individual performance
expectations.

In addition to individual CO performance plans, FAS’ Office of Strategic Business
Planning and Process Improvement developed scorecards at the organizational level.
The scorecards assist FAS managers in translating organizational strategies into
measurable actions and meaningful business results.

Within the FAS organization, the Schedules program is administered through nine
acquisition centers, which are located within three distinct FAS portfolios: Integrated
Technology Services; General Supplies & Services; and Travel, Motor Vehicles, and

                                            1
Card Services 2 , as shown in Chart 1. FAS developed new scorecards for each of these
portfolios for FY 2008.

Chart 1: FAS Portfolios and Corresponding MAS Acquisition Centers




                                                            
2
  On October 1, 2008, GSA announced the development of the Multiple Award Schedule Program Office,
a part of FAS’ Acquisition Management Office. The Office of Acquisition Management is responsible for
establishing the standards and framework for managing the acquisition workforce in accordance with
policy established by the GSA Chief Acquisition Officer. This new MAS Program Office will ensure that
the MAS portfolios are following consistent policies and procedures and strategically align the MAS
Program.


                                                               2
Objective, Scope, and Methodology

The objective of this review was to determine if FAS has performance measures for
MAS COs that stress the importance of contract quality, including pricing, and if not, to
identify potential performance measures FAS could implement to ensure that MAS
contracts reflect the intent and goals of the Schedules program. While we analyzed
contract quality from a broad perspective, we included pricing in our objective because
of its significance to the Schedules program and because it remains to be a concern to
oversight groups within and outside of GSA (see Appendix A).

To determine performance factors related to contract quality that FAS currently
emphasizes and measures, we analyzed individual APPAS plans for a sample of COs
from each of the MAS acquisition centers and reviewed the FAS organizational
scorecards for the portfolios that encompass the Schedules program (hereon referred to
as the FAS Portfolios). We conducted the review from May 2007 through March 2008.

We also performed the following steps:

   •   Met with various FAS officials from the following offices:
          Office of Administration
          Office of Strategic Business Planning and Process Improvement
          Office of Acquisition Management
          Office of Integrated Technology Services
          Office of General Supplies & Services

   •   Held discussions with officials from the GSA Office of the Chief Acquisition
       Officer (OCAO).

   •   Met with an official from the Human Capital Policy Division within the GSA Office
       of the Chief Human Capital Officer.

   •   Corresponded with officials from the FAS Acquisition Centers:
           Center for IT Schedule Programs
           GSA Center for Facilities Maintenance and Hardware
           Greater Southwest Acquisition Center
           Management Services Center
           Integrated Workplace Acquisition Center (formerly the National Furniture
             Acquisition Center)
           National Administrative Services and Office Supplies Acquisition Center
           Center for Services Acquisition
           Office of Vehicle Acquisition and Leasing Services

   •   Reviewed FAS’ draft and final FY 2007 MAS scorecards.




                                            3
   •   Analyzed the following FAS FY 2008 scorecards:
          Automotive Acquisition Scorecard
          General Supplies and Services Acquisition Operations Scorecard
          IT Schedules Program Scorecard

   •   Reviewed a sample of CO performance plans from all acquisition centers, as
       related to the Schedules program.

   •   Held meetings with procurement officials from the following organizations with
       acquisition functions. For reporting purposes, we randomly identified these
       organizations as “A” through “E”:
           U.S. Department of Veterans Affairs
           Internal Revenue Service, U.S. Department of the Treasury
           National Aeronautics and Space Administration
           State of Florida
           State of California

   •   Reviewed relevant GSA Office of Inspector General (OIG) and U.S. Government
       Accountability Office (GAO) audit reports from FY 1980 through FY 2008.

   •   Reviewed other reports related to reviews of the Schedules program, including
       the Office of Management and Budget’s Program Assessment Rating Tool from
       2006; GSA’s OCAO’s Procurement Management Review (PMR) reports from FY
       2007 for Regions 2, 3, 6, 7, and 10; and a FAS Acquisition Quality Measurement
       and Improvement Program Contract Quality Review summary, relating to
       contract quality, prepared in response to recommendations made by the GAO in
       2005.

   •   Reviewed relevant FAS internal guidance, including Procurement Information
       Bulletins (PIBs) and Procurement Information Notices (PINs) from FY 1997
       through FY 2008.

   •   Reviewed applicable provisions of the Federal Acquisition Regulation (FAR) and
       the General Services Acquisition Manual (GSAM).

   •   Reviewed Federal Managers Financial Integrity Act statements for FY 2008 for
       the Offices of Integrated Technology Services; General Supplies & Services; and
       Travel, Motor Vehicles, and Card Services.

   •   Reviewed the GSA Annual Performance and Accountability Reports for the
       period FY 2000 to FY 2007.

We conducted the review in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained


                                           4
provides a reasonable basis for our findings and conclusions based on our audit
objectives.  




                                          5
                                RESULTS OF REVIEW

FAS has performance measures for MAS COs that assess contract quality, including
customer satisfaction and compliance with laws, regulations, and guidelines. We found
the existing measures for customer satisfaction to be sufficient. However, because of
the importance of pricing to the foundation of the Schedules program, attention is
needed to ensure that pricing receives more emphasis in CO performance and to
ensure an adequate assessment of overall compliance.

We recognize that FAS has made efforts to develop meaningful and measurable
contract quality measures for MAS contracts, including some pricing measures.
However, we believe FAS should adopt additional measures at the organizational level
to address continuing concerns about Schedules program pricing. Strengthening price
related performance measures is critical to improve controls over the quality of MAS
contracts and enhance the value of the Schedules program. In conjunction with the
information we are providing based on our study of other government procurement
organizations, we are also reaffirming recommendations from a previous report
intended to improve CO performance in price analysis and negotiations.

Relative to broad compliance with laws, regulations, and guidelines, FAS has developed
portfolio scorecards that incorporate a measure for overall quality of contract actions;
however, FAS has not formally implemented the measure. The intended basis for the
measure is the results of annual reviews performed by GSA’s OCAO; however, in our
opinion, these reviews do not provide adequate evidence of the level of compliance for
the Schedules program due to the small number of MAS contract actions the OCAO
samples.

Quality in MAS Contracting Can be Defined in Terms of Customer Satisfaction
and Compliance with Laws, Regulations, and Guidelines

To determine if FAS has performance measures for MAS COs that stress the
importance of contract quality, we explored the definition of a quality contract. Based
upon our research and comparative analyses, we concluded that contract quality
includes: (1) Customer satisfaction, and (2) Compliance with laws, regulations, and
guidelines.

Customer Satisfaction

Customer satisfaction reflects the Schedules program goal to help federal agencies
better serve the public by offering direct access to commercial products and services at
volume discount prices. As a non-mandatory source, the Schedules program must
compete with other contracting vehicles available to customer agencies. Therefore,
measuring the extent to which customer agencies are satisfied with the program is
imperative.




                                            6
        Timeliness. We noted that timeliness in awarding and administering contracts is
a common measure in other government procurement organizations. FAS measures
cycle times as part of operational efficiency and effectiveness; however, timeliness is
also an integral part of customer satisfaction. With the maturity of the Schedules
program, timeliness is especially important in processing modifications and contract
renewals to ensure continuity of services and availability of the most current technology
and supplies in support of customer agency missions.

Compliance with Laws, Regulations, and Guidelines

A quality contract must comply with applicable laws, regulations, and guidelines. For
instance, a MAS contract must adhere to various laws and regulations, such as the FAR
and the GSAM. There are a multitude of characteristics that contribute to a quality
contract that are included in the category of compliance with laws, regulations, and
guidelines. For example, contracts should include all of the required clauses to protect
the government’s interest, be sufficiently documented, receive adequate competition,
and offer fair and reasonable pricing. In addition, COs should demonstrate sound
decision making and knowledge of the various contract requirements.

        Pricing. The importance of price to the MAS program can be traced to federal
statute. The Competition in Contracting Act (CICA) of 1984 (41 U.S.C. 253), as
implemented in FAR Part 6, sets a standard of competition for Federal contracts.
Although there are a number of laws impacting the way the Government buys its goods
and services, CICA is one of the more important laws because its establishes
competition as the norm for Federal contracts. Section 259(b)(3) of title 41 of the United
States Code provides that the procedures established under the Schedules program
satisfy the general requirement in 41 U.S.C. 253(a)(1) for the use of competitive
procedures if (1) participation in the program has been open to all responsible sources,
and (2) orders and contracts under such procedures result in the lowest overall cost
alternative to meet the needs of the government. Relative to (2), price analyses and
negotiations are key substantive steps the CO takes to ensure that the determination of
contract pricing reflects the aggregate volume of Government demand. The Code of
Federal Regulations (CFR) reinforces this premise in the “most favored customer”
negotiation policy in 48 CFR § 538.270. Similarly, FAS emphasizes it in its internal
instructional materials:

             Our goal is to use commercial terms and conditions and the
             leverage of the Government’s volume buying to achieve the best
             possible prices and terms for both customers and taxpayers.
                                             -- Federal Supply Service PIB 04-2

FAS Needs to Strengthen Performance Measures for Contract Pricing and Overall
Compliance with Laws, Regulations, and Guidelines

At the individual and organizational level, FAS has established performance measures
that assess contract quality in terms of customer satisfaction and compliance with laws,
regulations, and guidelines. We believe the existing measures for customer satisfaction


                                             7
are adequate. However, FAS needs to strengthen measures for pricing and overall
compliance to ensure quality contracting in the Schedules program.

Customer Satisfaction Measures are Adequate

Customer satisfaction, including timeliness, is well represented in both the existing CO
performance plans and the FAS portfolio scorecards, as shown in Table 1 and Table 2.




                                            8
We found that other government procurement organizations also track and measure
customer satisfaction. Those organizations that did not have a formal measure for
customer satisfaction advised us that it is nevertheless a significant consideration when
evaluating individual performance. The following is an example of a specific measure
we identified for attention to customer satisfaction:




                                           9
             Constantly listens to customers, analyzes their feedback to
             identify their needs and expectations, and acts to continuously
             improve products and services.

Existing FAS Measures for Pricing and Overall Compliance Need Strengthening

Every CO’s performance plan and FAS portfolio scorecard we analyzed included
performance measures related to compliance with laws, regulations, and guidelines, as
shown in Tables 3 and 4, respectively; however, in order to ensure that MAS contracts
reflect the intent and goals of the Schedules program, FAS needs to strengthen
measures for pricing and overall compliance.




                                           10
In general, evaluations of CO compliance with laws, regulations, and policies are based
on supervisory file reviews. The extent of these reviews varies among the acquisition
centers. We believe that the existing measures on the CO APPAS plans are adequate
to assess general compliance. However, due to the significance of achieving most
favored customer pricing when making awards and exercising options, we believe
additional measures are needed for pricing at the organizational level. In addition, FAS
should implement an internal review program to provide an adequate assessment of
overall compliance.

       Additional Pricing Measures Needed. We recognize that FAS has made efforts
to develop meaningful, measurable contract quality performance measures relating to
pricing for the Schedules program. We acknowledge that the Integrated Technology
Services’ scorecard has two measures for price competitiveness; however, because of
the importance of pricing to the Schedules program, FAS needs to ensure that pricing
receives adequate emphasis across the portfolios.

As noted earlier in this report, the significance of price to the Schedules program is
based in statute and regulation, and is also reflected in internal FAS guidance. To
underscore the importance of pricing to the program, Appendix A provides a list of
relevant reports and criteria that emphasize the CO’s responsibility related to MAS


                                            11
contract pricing and the need for improved performance in this area. Most recently, our
office issued Audit Report Number A060190/Q/6/P07004, “Review of Multiple Award
Schedule Program Contract Workload Management” (MAS Workload Management),
dated July 31, 2007, wherein we addressed the need for increased attention to pricing
in CO performance measures, including negotiations:

                             A key value proposition for the Schedules program is customer
                             agencies’ ability to order goods and services with the assurance
                             that GSA has determined the prices to be fair and reasonable . . .
                             Accordingly, having a well-defined quality measure that focuses
                             on price evaluation and negotiations is important to ensure
                             effectiveness in these areas.

In that report, we recommended that FAS establish performance measures that
evaluate CO effectiveness in three areas:

9 Verification of vendor disclosures related to their commercial sales practices (CSP),
9 Price analysis and negotiations, and
9 Consideration of field pricing assistance.

As of the date of this report, FAS has not implemented this recommendation and has
indicated that they are waiting for this report to assist them in implementation.
Accordingly, we wish take the opportunity in this report to reaffirm and clarify this
recommendation.

In pursuing a policy of achieving vendors’ most favored customer pricing, COs rely upon
information vendors provide regarding their CSP data, including categories of
customers, sales volume, and discounts and terms granted those customers. The more
information the CO has regarding a vendor’s sales practices and actual prices granted,
the better the opportunity for the CO to be successful in negotiating the best pricing for
the government. Every year, the OIG coordinates with FAS to perform a limited number
of reviews of vendor sales information for selected MAS contracts in order to verify the
accuracy of this information and report the results of these attestation reviews for the
COs’ use in negotiations. These reviews continue to identify inaccuracies with vendor-
provided data and other pricing issues. Of the 68 reviews the OIG conducted in FY
2007, approximately 70 percent of the reviews indicated that the CSP data that the
vendors submitted was not current, accurate, or complete. In addition, approximately
70 percent of the reviews determined that the vendor did not offer the government most
favored customer pricing. For the reviews issued from FY 2005 through the first quarter
of FY 2007, the GSA OIG recommended to FAS COs over $1.9 billion in savings. At
the time of report issuance, FAS COs have worked to achieve approximately $627
million in savings as a result of those reviews. 3
The high incidence of vendor disclosure issues identified by the OIG reviews, as well as
the frequency of OIG determinations that the vendor is not offering most favored

                                                            
3
  As of March 2009, management had not yet committed a savings amount for fifteen of the contracts
reviewed, which total over $231 million of recommended savings.


                                                               12
customer pricing, suggests that COs need to take a proactive approach to ensure they
have a complete understanding of the vendor’s sales practices when negotiating most
favored customer pricing. The recommendation in the MAS Workload Management
report related to establishing performance measures that evaluate COs’ verification of
vendor disclosures reflects our belief in this need for a proactive approach. The most
important step to verification is for COs to clarify CSP information provided by vendors
through a series of questions designed to ensure that the vendor has disclosed all
instances of pricing more favorable than that which the vendor is offering GSA, and all
of the circumstances related to the more favorable pricing. For example, OIG
attestation reviews have found that customers receiving better pricing also often buy in
smaller quantities and under less favorable conditions than GSA customers. Another
problem that is becoming more common is that some vendors have no commercial
sales. As a result, the only practical basis of contract award is cost information. The
information obtained by the CO through the clarification process would be included in
the contract file in accordance with FAR 15.406(3)(a).

The second and third parts of the recommendation in the MAS Workload Management
report relative to price analyses, negotiations, and consideration of field pricing
assistance, refer to the extent to which contract file documentation reflects that the CO
has followed FAR 15.406 for these elements. Recommendation 2 of this report (See
Page 15 of this report) could address this recommendation.

We found that most of the other government procurement organizations we researched
have performance measures for acquisition professionals relating to compliance,
including pricing. The measures identified are listed below in Tables 5 and 6,
respectively.




                                            13
We believe FAS could adopt meaningful measures for pricing at the organizational
level. In reviewing the individual CO APPAS plans, we learned that the evaluations of
CO compliance with laws, regulations, and guidelines are largely based on supervisory
file reviews, such as Pre-Negotiation Clearance Panel reviews which are to be
performed in accordance with Federal Supply Service Acquisition Letter FC-03-1 issued
on March 25, 2003. From past audits conducted, we know that the extent of these
reviews varies among the acquisition centers. To emphasize the importance of price
analysis, including achievement of MFC pricing and meaningful negotiations, we believe
that acquisition center management should institute a pricing review for a risk-based
sample of proposed awards or modifications. This review should consider all facets of
price analysis, including, but not limited to questions such as:

9 Does the contract file reflect that the CO asked a series of questions to evoke full
  disclosure of the vendor’s sales practices?
9 Does the CO’s analysis reflect that the CO was knowledgeable about industry
  pricing practices?
9 If MFC pricing was not offered, does the contract file reflect that the CO evaluated
  the vendor’s reasons for not offering MFC as required by 48 CFR 538.270?
  • Does the CO’s analysis of these reasons reflect sound business judgment and
       adherence to FAS policies and guidance?
  • Does the contract file reflect that the CO evaluated the quantities the MFC
       purchased in comparison to the Government?
9 If there was an attestation review or audit performed, does the contract file reflect
  that the CO considered the field pricing assistance in compliance with FAR
  15.406(3)(a)?

This pricing review should be consistent in content and form throughout all acquisition
centers.

Each fiscal year, the results of these reviews could be reported to each acquisition
centers’ respective portfolio management. In turn, an organizational measure should be
added to each portfolio’s scorecard to measure the results of these file reviews. This
approach places the focus on overall organizational pricing achievements and at the
same time highlights the fact that FAS management recognizes the significance of


                                           14
quality price analysis, including the achievement of MFC pricing and meaningful
negotiations. The implementation of these reviews supports GSA’s strategic goal of best
value in developing and delivering timely, accurate, and cost-effective acquisition
services and business solutions.

Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

       1. Ensure that the Offices of General Supplies & Services and Travel, Motor
          Vehicles, and Card Services develop at least one organizational measure
          emphasizing the importance of pricing to the Schedules program for FY 2010
          and future scorecards.

       2. Ensure that the Offices of Integrated Technology Services; General Supplies &
          Services; and Travel, Motor Vehicles, and Card Services develop an
          organizational measure for FY 2010 and future scorecards to measure price
          analysis for a risk-based sample of proposed awards or modifications (e.g.,
          percent of contracting actions reviewed with acceptable price analysis performed
          and adequately documented in compliance with regulatory guidelines).

Management Comments

In his August 21, 2009 response to the draft report, the Commissioner indicated partial
agreement with these recommendations.

        Recommendation 1. The Commissioner’s response stated that FAS agrees that
pricing is a key responsibility of the MAS program and that measures should be
developed, noting that the Travel, Motor Vehicle and Card Services portfolio has
already put in place a proposed tracking measure for FY 2009. The response also
indicates that proposed measures need to be evaluated in conjunction with the overall
FAS strategic goals, the recommendations and implementation of the MAS Blue Ribbon
Panel, as well as the revised GSAR/GSAM; and because of this, FAS believes the
recommendations are ill-timed. In addition, the response describes efforts by the
Travel, Motor Vehicles, and Card Services portfolio to establish a performance measure
for pricing.

We reaffirm our recommendation. As our report conveys, the importance of price to the
Schedules program is based in federal law; in fact, it is the fundamental basis for the
statutory exemption of the program from CICA requirements and one of the key benefits
of the program to customer agencies. In addition, there is ample history of pricing
problems with the Schedules program, as illustrated in Appendix A of our report, as well
as two outstanding recommendations related to performance measurement for pricing
and negotiations from a July 2007 OIG report 4 that FAS has yet to implement. Due to
                                                            
4
 General Services Administration, Office of Inspector General, Review of Multiple Award Schedule
Program Contract Workload Management (July 31, 2007).


                                                               15
the size and risk associated with the Schedules program, we believe the
recommendation is not only reasonable but long overdue.

       Recommendation 2. The Commissioner’s response stated that FAS is
developing training courses to educate the acquisition workforce on contracting
requirements, including negotiations and documentation, and that the development and
implementation of these courses will be part of the performance measures for the FAS
Office of Acquisition Management. While acknowledging that pricing is a key
responsibility of the program, the response reiterates that FAS believes the
recommendation to be ill-timed, citing reasons similar to those noted in the response to
Recommendation 1 above. In addition, the response notes that the Travel, Motor
Vehicles, and Card Services portfolio will begin monthly internal program reviews in FY
2010, where supervisory staff will select high-risk contracts and conduct a detailed file
review to ascertain where knowledge and/or skill gaps exist in the workforce, and that
this data will be tracked for FY 2010 to establish a baseline for a potential measure in
FY 2011.

We reaffirm our recommendation. While we agree that training is important and may be
an appropriate measure for the Office of Acquisition Management, it is not an outcome-
oriented performance indicator for the program.


Measure for Overall Compliance with Laws, Regulations, and Guidelines is Not
Adequate

As noted in Table 4, FAS included a measure on each of the FY 2008 portfolios’
scorecards for acceptable contract quality. It is insufficient because (1) FAS has not
implemented the measure, and (2) the intended basis of the measure [GSA OCAO
reviews] does not provide adequate evidence of compliance.

From the performance measure data sheets for the scorecards we analyzed, the
measure for “Percentage of contracts reviewed with acceptable quality” for all portfolios
is designated as “partially complete.” FAS officials stated that the reason this measure
is partially complete is due to the difficulty in quantifying the data, and that applying this
measure as a baseline is unreasonable due to the OCAO reviews not encompassing
the volume of the program. Per officials with the Office of Strategic Business Planning
and Process Improvement, it is possible that this measure will be removed from the
scorecards in FY 2009.

It is our understanding that FAS intended for this measure to be based on the results of
the OCAO’s PMRs, which are conducted on an annual basis for all of GSA’s
procurement programs. For each GSA region, the OCAO selects a sample of
contracting actions for each service to review for acceptable quality, covering a broad
range of compliance factors, including acquisition planning, contractor responsibility
determination, compliance with a variety of regulatory and legal requirements,
negotiation and award documentation, contract administration, and exercise of contract
options.


                                              16
However, due to limited staffing, the OCAO reviews are based on a small sample of
contract actions. In FY 2007, the OCAO reviewed an average of 10 Schedule contract
files per acquisition center. 5 In addition, OCAO representatives advised us that PMR
reviews are intended to identify systemic trends rather than a definitive assessment of
overall compliance. Considering the significant risk due to the size of the Schedules
program, it is critical for FAS to establish a sufficient and reliable basis for measuring
overall compliance.

Recommendation

We recommend that the Commissioner of the Federal Acquisition Service:

       3. Establish an internal review program through the Office of Acquisition
          Management that will provide an adequate assessment of the extent that MAS
          contracts meet requirements for quality in terms of compliance with laws,
          regulations, and guidelines and that can be quantitatively measured at the
          organizational level.

Management Comments

In his August 21, 2009 response to the draft report, the Commissioner indicated partial
agreement with this recommendation.

       Recommendation 3. The Commissioner’s response stated that FAS agrees that
an internal review program is vital to the quality assessment of contract compliance at
the organizational level. In addition, FAS states that the Office of Acquisition
Management cooperates with the OCAO’s office by supplying personnel to participate in
reviews and assists, as requested, in the development of the PMR review checklists.
However, FAS believes that it is imprudent to develop two review programs that they
believe focus on the same task.
We reaffirm our recommendation that the Commissioner of FAS should establish an
internal review program through the Office of Acquisition Management that will provide
an adequate assessment of the extent that MAS contracts meet requirements for quality
in terms of compliance with laws, regulations, and guidelines and that can be
quantitatively measure at the organizational level. The OCAO’s PMR process is not
intended to serve as an internal review function for the entire MAS program. PMR
reviews cover all of GSA’s acquisition programs, and MAS programs have very limited
exposure. In FY 2007, the OCAO reviewed a total of 155 contracts. Of those contracts,
the OCAO reviewed an average of 10 MAS contracts across five regions5. As of
September 1, 2008, GSA had over 16,000 MAS contracts in effect.



                                                            
5
  In FY 2007, the OCAO PMRs included MAS Acquisition Centers in Regions 2, 3, 6, 7, and 10 resulting
in an average of 10.2 Schedule contracts reviewed per acquisition center.


                                                               17
                                     CONCLUSION

FAS has performance metrics for MAS COs that measure contract quality. While FAS
has sufficient measures for customer satisfaction, the measures for pricing need to be
strengthened. Because pricing is paramount to the Schedules program, attention is
needed to ensure that it receives adequate emphasis in CO performance. In addition,
FAS needs to take action to ensure a greater emphasis on overall compliance with
laws, regulations, and guidelines.

FAS should adopt additional measures at the organizational level to address continuing
concerns about Schedules program pricing to ensure that the program meets its
fundamental intent to leverage the collective purchasing volume of the government.
Strengthening price related performance measures is critical to improve controls over
the quality of MAS contracts and ensure that the MAS program fulfills its key value
proposition to offer volume discount pricing. The targeted review process advocated in
this report would also emphasize to acquisition professionals the importance of
performing a quality price analysis and achieving the best prices attainable. Further, in
order to maintain the Schedules program’s unique exemption from full and open
competition established by law, FAS must be vigilant in ensuring that orders and
contracts under the MAS program result in the lowest overall cost alternative to the
government. In implementing the recommendations associated with pricing in this
report, FAS could also satisfy the recommendation associated with performance
measures from the MAS Workload Management report, referred to on Page 12 of this
report.

Relative to compliance with laws, regulations, and guidelines, FAS has developed
portfolio scorecards that incorporate a measure for overall quality of contract actions;
however, FAS has not formally implemented the measure. In order to provide an
adequate assessment of the extent to which MAS contracts meet the requirements for
quality, FAS should establish an internal review program that can be quantitatively
measured at the organizational level.


                                INTERNAL CONTROLS

We performed a limited internal control review related to the FAS FY 2008 scorecards
and the sample of APPAS plans we reviewed. The Results of Review and
Recommendations sections of this report outline improvements needed in the
performance measurement process related to contract quality.




                                           18
APPENDICES
                        REVIEW OF PROGRAM
             PERFORMANCE MEASUREMENT FOR PROCUREMENT
                  REPORT NUMBER A070171/Q/A/P09005


                                    APPENDIX A

                  Pricing Criteria and History of Reported Problems

GAO Reports:
  ♦ “Contract Management: Opportunities to Improve Pricing of GSA Multiple Award
     Schedules Contracts,” GAO Report Number GAO-05-229, issued February 11,
     2005: The GAO analysis of GSA's review of selected FY 2004 Schedules’
     contract files found that nearly 60 percent lacked the documentation needed to
     clearly establish that the prices were effectively negotiated. Specifically, the
     contract documentation did not establish that negotiated prices were based on
     accurate, complete, and current vendor information; adequate price analyses;
     and reasonable price negotiations. The report cited that GSA's efforts to ensure
     most favored customer pricing have been hindered by the significant decline in
     the use of pre-award and post-award audits of pre-award pricing information, two
     independent pricing tools that have helped GSA avoid or recover hundreds of
     millions of dollars in excessive pricing.

   ♦ “Multiple Award Schedules Contracting: Changes Needed in Negotiation
     Objectives and Data Requirements,” GAO Report Number GGD-93-123, issued
     on August 25, 1993: GAO found that GSA’s policy related to its pricing objective
     was unclear. Most favored customer should be GSA’s negotiation objective and
     Schedule prices frequently were not the vendor’s best prices.


GSA Federal Supply Service Report:
  ♦ “Acquisition Quality and Improvement Program – Contract Quality Review
     Summary,” issued April 15, 2005: The Acquisition Quality Measurement and
     Improvement Program was designed to measure compliance with all negotiation
     requirements with an emphasis on pricing. The major finding of the review was
     that better documentation is needed to support negotiation of most favored
     customer pricing for MAS contracts.


GSA Office of Inspector General Reports:
  ♦ From 2000 – 2007, the GSA OIG has identified the Schedules program as a
     Major Management Challenge in its Annual Performance and Accountability
     Report. The concern is that, as the Schedules program has grown, the
     importance of certain program fundamentals, such as price analysis and
     negotiations have diminished.

                                         A-1
   ♦ “Review of Multiple Award Schedule Program: Workload Management,” Report
     Number A060190/Q/6/P07004, issued July 31, 2007: GSA OIG attestation
     reviews of schedule vendor pricing information continue to identify problems.
     Over 75 percent of pre-award MAS attestation reviews issued by the GSA OIG
     from FY 2005 through the first quarter of FY 2007 indicated that the CSP data
     that the vendors submitted was not current, accurate, or complete. For the same
     time period, the GSA OIG recommended over $2.3 billion in savings as a result
     of these reviews. The report recommended that FAS establish performance
     measures that evaluate CO verification of vendor disclosures related to
     commercial sales practices, CO effectiveness in analyzing prices and conducting
     negotiations, and consideration of field pricing assistance.

   ♦ GSA OIG Special Report: “MAS Pricing Practices: Is FSS Observing Regulatory
     Provisions Regarding Pricing?” issued August 24, 2001: The OIG found that for
     44 out of 80 schedule contracts reviewed, COs extended contracts without a
     meaningful or vigorous price analysis.


Federal Acquisition Regulation (FAR):
   ♦ FAR 8.404 – Federal Supply Schedules: Subpart states, “GSA has determined
      the prices of supplies and services under schedule to be fair and reasonable.”

   ♦ FAR 15.406 (3a) – Contract Pricing: Subpart states, “The contracting officer
     shall document in the contract file… a summary of the contractor’s proposal, any
     field pricing assistance recommendations, including the reasons for any pertinent
     variances from them, the Government’s negotiation objective, and the negotiated
     position.”


Federal Supply Service Procurement Information Bulletins (PIBs):
   ♦ PIB 04-8, “Achieving Fair and Reasonable Prices in MAS Negotiations, 3,”
      issued August 20, 2004: This PIB includes guidance for exercising contract
      options and states that industry and vendor information change over time.
      Therefore, pricing consistency should not be expected.

   ♦ PIB 00-10, “Fair and Reasonable Prices and the MAS Pricing Policy,” issued
     April 18, 2000: This PIB outlines that a basic part of FSS’ responsibility to its
     customers is to determine prices to be fair and reasonable.

   ♦ PIB 99-7, “3 Friendly Reminders,” issued March 5, 1999: This PIB includes a
     reminder to the procurement staff that prices and terms for contract modifications
     (including exercising contract options) are just as important as those at the time
     of award. In addition, the PIB states that the vendor’s CSP usually changes;
     therefore, if the vendor asserts that the CSP remains constant from the time of
     award, it should be questioned.


                                           A-2
♦ PIB 97-14, “The Final Rule Arrives,” issued September 3, 1997: This PIB states
  that GSA and the COs have a responsibility to the taxpayers and to customer
  agencies to take full advantage of the Government’s leverage in the market in
  order to obtain the best deal for the taxpayer.




                                     A-3
           REVIEW OF PROGRAM
PERFORMANCE MEASUREMENT FOR PROCUREMENT
     REPORT NUMBER A070171/Q/A/P09005


               APPENDIX B

           Management Comments




                   B-1
B-2
B-3
B-4
B-5
B-6
                                          REVIEW OF PROGRAM
                               PERFORMANCE MEASUREMENT FOR PROCUREMENT
                                    REPORT NUMBER A070171/Q/A/P09005


                                                               APPENDIX C

                                               OIG Response to Management’s Comments

In his August 21, 2009 response, the Commissioner of the Federal Acquisition Service
(FAS) provided comments to the draft report under the headings, “General Comments”
and “Comments on Specific Recommendations.” This appendix addresses the
Commissioner’s general comments. Our comments on the Commissioner’s response to
specific recommendations are in the body of the report following each recommendation.

Audit Scope and Objectives

The Commissioner’s general comments stated that the purpose and recommendations
of our review expanded considerably from its inception and focused primarily on price
negotiations and program-wide controls rather than the originally stated scope and
objective.

This review was included as part of the General Services Administration (GSA) Office of
Inspector General’s (OIG) FY 2007 Annual Audit Plan. The plan stated a focus for this
review which included four areas as identified in the Commissioner’s comments.
However, as stated in the entrance conference held on May 31, 2007, the audit team
planned to establish the audit objectives and scope upon completion of the survey
phase 1 of the review.

On August 1, 2007, the audit team informed the designated FAS point of contact for the
review that we had considered the four focus areas included in the Annual Audit Plan
and determined that we could not go forward with these objectives because FAS had
not yet finalized the scorecards related to the Schedules program for FY 2007. At that
time, we also informed our contact point of our revised audit objectives as stated in this
report. Shortly after this communication, FAS changed our point of contact. On August
20, 2007, the audit team communicated to the new contact point the same revised
objectives and our planned methodology. Further, during a status meeting with FAS on
January 30, 2008, we again informed FAS of our revised objectives.

Negotiations and Pricing

The Commissioner’s comments indicate that FAS takes strong exception to the
characterization that the negotiation objective for Schedule contracts is Most Favored
Customer (MFC) and that the negotiation outcome must leverage the purchasing
                                                            
1
 The audit survey phase is a fact-finding process to gather operational, performance, financial, and other
program activity information without detailed data verification of supporting information.
                                                                  C-1
volume of the Government. The comments cite a caveat set forth in the General
Services Acquisition Manual (GSAM) which recognizes that there may be legitimate
reasons why the best price is not achieved. While we agree that contracting officials
should consider all terms and conditions involved and that there may be instances in
which the best price may not be achieved, this does not negate the fact that the goal of
achieving MFC pricing and leveraging the purchasing power of the government are
fundamental pillars of the Schedules program. GSA’s Schedules webpage states that,
“GSA Schedule contracts are negotiated with the intent of achieving the contractors’
‘most favored customer’ pricing/discounts under similar conditions.” Additionally, the
former Federal Supply Service’s Procurement Information Bulletin (PIB) 97-14 outlines
that GSA is to, “…continue to seek to obtain the offeror’s best price (most favored
customer) based on its evaluation of discounts, terms, conditions, and concessions
offered to commercial customers for similar purchases. The pursuit of most favored
customer pricing as a goal is consistent with commercial practice and totally consistent
with the objective of negotiating a fair and reasonable price.” This PIB continues on to
state that, “GSA and its COs have a fiduciary responsibility to the American taxpayers
and the customer agencies to take full advantage of the government’s leverage in the
market in order to obtain the best deal for the taxpayer.” Therefore, we reaffirm our
statements in the report.

The Commissioner’s comments also state that while FAS recognizes the importance of
pricing in all its programs, FAS also recognizes (1) the importance of competition and
pricing at each level of the programs FAS administers, and (2) that further negotiation,
competition, pressures, and leverage exercised at the most appropriate time in the
acquisition cycle will yield the best price for the Government. These comments highlight
a fundamental disagreement the OIG has with FAS regarding the intent and value of the
Schedules program. As noted in this and previous audit reports, a key value proposition
for the Schedules program is the ability of customer agencies to order goods and
services with the assurance that GSA has determined the prices to be fair and
reasonable. This also represents the primary value that GSA adds to the acquisition
process under the Schedules program and is consistent with the intent of the program
to offer commercial goods and services where vendor pricing is based on a competitive
marketplace. Further, this is the rationale for the required vendor Commercial Sales
Practices disclosure and the GSA Contracting Officer’s evaluation of that disclosure.

Benchmarking of Performance Measures

The Commissioner’s comments indicated dissatisfaction with the benchmarking work
we performed as incomplete and not relevant to the Schedules program. In addition,
the comments state that FAS was looking to understand how the public and private
sectors, which create large contract vehicles for others to use, evaluate the success of
their programs and specifically the desire to obtain metrics from several public programs
including Texas Multiple Award, California Multiple Award, Veterans Affairs Schedules,
and NASA Solutions for Enterprise-Wide Procurement (SEWP).



                                          C-2
As stated in the “Objective, Scope, and Methodology” section of the report, we met with
procurement officials from five government organizations, three of which are referred to
in the Commissioner’s comments. Tables 5 and 6 in the report represent those
organizations’ measures regarding compliance with laws, regulations, and guidelines.
Table 5 includes the compliance performance measures for individual acquisition
professionals and Table 6 includes the compliance measures at the organizational level.

In the survey phase of our review, we contacted a representative from the fourth
program mentioned in the Commissioner’s comments. At that time, the procurement
office was undergoing reorganization and did not have performance measures in place.
In addition, when we met with procurement officials in these organizations, we provided
assurance that we would not identify them specifically or associate the organization by
name with their respective measures in our report, which is standard practice for our
reviews. To date, we have not received requests from FAS officials for copies of any
specific measures or metrics.

The Commissioner’s response states that the measures shown in Table 6 of this report
are not relevant to the award of MAS contracts. Most of the organizations we studied
award contracts for others to use. In addition, the first measure mentioned in Table 6 is
similar to a measure included on the FAS’ FY 2007 and FY 2008 scorecards for the IT
Schedule for product price competitiveness. In addition, there is a measure included in
this table which measures the percent of solicitations or contract files approved upon
initial policy/legal review. According to a GSA memorandum issued on October 1,
2003, by the Federal Technology Service Commissioner, legal review/approval/
concurrence is required prior to executing various contracts or contracting actions over
certain thresholds, including Schedules, or task orders or BPAs awarded against
Schedules. Therefore, we affirm that the measures included in Table 6 are pertinent to
MAS contracts.




                                           C-3
                         REVIEW OF PROGRAM
              PERFORMANCE MEASUREMENT FOR PROCUREMENT
                   REPORT NUMBER A070171/Q/A/P09005

                                      APPENDIX D

                                   Report Distribution

                                                                   Copies

Commissioner, Federal Acquisition Service (Q)                        3

Internal Control and Audit Division (BEI)                            1

Assistant Inspector General for Auditing (JA & JAO)                  2

Assistant Inspector General for Investigations (JI)                  1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)     1




                                            D-1
